No.

IN THE
SUPREME COURT OF THE UNITED STATES

AMIN A. RASHID,
Petitioner,
vs
UNITED STATES OF AMERICA,

Respondent.
PROOF OF SERVICE

I, Amin A. Rashid, do swear or declare that on this date, Mav
5th, 2021, as reauired by Supreme Court Rule 29 I have served the
enclosed petition FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person
reauired to be served , by depositing an envelope containing the
above documents in the United States mail properly addressed to
each of them with first class postage prepaid .
The names and addresses of those served are as follows:
United States Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Washington,_D.C. 20550
I declare under penalty of oer.iurv that the foregoing is true and
correct.
Executed on May 5th, 2021.
■^AMn^A. "Rash .i d

